App. 1
APPENDIX A: AMICI CURIAE
Professor Benjamin P. Cooper
Senior Associate Dean, Professor of Law,
and Frank Montague, Jr. Professor of
Legal Studies and Professionalism
UNIVERSITY OF MISSISSIPPI SCHOOL OF LAW
Professor Nathan M. Crystal
Class of 1969 Professor Emeritus of
Professional Responsibility & Contract
UNIVERSITY OF SOUTH CAROLINA SCHOOL OF LAW
Adjunct Professor of Professional Responsibility
NEW YORK UNIVERSITY SCHOOL OF LAW
Dean Larry Cunningham
Dean and Professor of Law
CHARLESTON SCHOOL oF LAW
Professor I. Richard Gershon
Professor of Law and Dean Emeritus
UNIVERSITY OF MISSISSIPPI SCHOOL OF LAW
Professor William M. Janssen
Professor of Law
CHARLESTON SCHOOL OF LAW
Professor Patrick E. Longan
William Augustus Bootle Chair in
Professionalism and Ethics
MERCER UNIVERSITY SCHOOL OF LAW
Professor Miller W. Shealy
Professor of Law
CHARLESTON SCHOOL OF LAW

